Aft. A
UNPUBLISHED

united states court of appeals
FOR THE FOURTH CIRCUIT
No. 20-6670

JAMES MARCUS LLOYD, III,
Petitioner - Appellant,
v.
J. HUTCHINSON, Warden,
Respondent - Appellee.

District Court for the District of South Carolina, at Rock
Hm.epigTjones Gossett, Magistrate Judge. (0:20-cv-00963-MGL)

Submitted: September 22, 2020

Decided: September 25, 2020

Before NIEMEYER, KEENAN, and FLOYD, Circuit Judges.
Dismissed by unpublished per curiam opinion.
James Marcus Lloyd, III, Appellant Pro Se.
Unpublished opinions are not binding precedent in this circuit.

rwPER CURIAM:
James Marcus Lloyd, III, seeks to appeal the
recommendation recommending that Lloyd

magistrate judge’s report and

’s 28 U.S.C. § 2241 petition be dismissed . This

over final orders, 28 U.S.C. § 1291, and certam
exercise
jurisdiction
only
court may
; Fed. R- Civ. P. 54(b); Cohen v.
d collateral orders, 28 U.S.C. § 1292
interlocutory an
The report and
337 U.S. 541, 545-46 (1949).
Beneficial Indus. Loan Corp.
final order nor an appealable
recommendation Lloyd seeks to appeal is neither a
deny Lloyd’s motions to appoint counsel
interlocutory or collateral order. Accordingly, we
is and dismiss the appeal for lack of jurisdiction.
and for leave to proceed in forma pauperis,
ith oral argument because the facts and legal contentions are adequately
We dispense w
in the materials before this court and argument would not aid the decisional
presented
process.
DISMISSED

2

0:20-cv-00963-MGL

Date Filed 03/25/20

Entry Number 5

Page 1 of 5

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF SOUTH CAROLINA
James M. Lloyd, III,
Petitioner,
v.

)
)
)
)

C/A No. 0:20-963-MGL-PJG

)

REPORT AND RECOMMENDATION

)
)
)
)
)

J. Hutchinston, Warden,
Respondent.

The petitioner, James M. Lloyd, III, a self-represented federal prisoner, filed this petition
for a writ of habeas corpus pursuant to 28 U.S.C. § 2241. This matter is before the court pursuant
to 28 U.S.C. § 636(b) and Local Civil Rule 73.02(B)(2)(c) (D.S.C.). Having reviewed the Petition
in accordance with applicable law, the court concludes that it should be summarily dismissed.
I.

Factual and Procedural Background
Petitioner is an inmate at the Federal Correctional Institution in Edgefield, South Carolina.

Petitioner indicates he was convicted in the United States District Court for the Middle District of
Georgia of being a felon in possession of a firearm, 18 U.S.C. § 922(a)(2) and § 924(g), and
sentenced in June 2015 to ninety-six months’ imprisonment. (Pet., ECF No. 1-1 at 1.) He indicates
he filed a direct appeal; filed a motion to vacate, set aside, or correct the sentence pursuant to 28
U.S.C. § 2255; and sought permission to file a successive § 2255 motion, all of which were denied.
(Id at 1-2.)
Petitioner now brings this petition for a writ of habeas corpus pursuant to 28 U.S.C. § 2241.
Petitioner asks this court to vacate his conviction because of the United States Supreme Court’s
recent decision in Rehaif v. United States. 139 S. Ct. 2191 (2019) (holding that in a prosecution
under 18 U.S.C. § 922(a)(2) and § 924(g), the Government must prove the defendant knew he

Page 1 of 5

0:20-cv-00963-MGL

Date Filed 03/25/20

Entry Number 5

Page 2 of 5

possessed a firearm and that the defendant knew he belonged to the relevant category of persons
barred from possessing a firearm). Specifically, Petitioner argues his conviction should be vacated
because (1) the Government failed to prove at trial that he knew he was barred from owning a
firearm, (2) the jury was instructed that the Government did not have to prove that Petitioner knew
he was not allowed to possess a firearm, and (3) Petitioner’s indictment did not contain facts
indicating that the Government could prove that it could meet the knowledge element required by
Rehaif.
II.

Discussion
A.

Standard of Review

Under established local procedure in this judicial district, a careful review has been made
of the pro se petition filed in this case pursuant to the Rules Governing § 2254 Cases,1 28 U.S.C.
§ 2254; the Antiterrorism and Effective Death Penalty Act of 1996 (“AEDPA”), Pub. L. No. 104132, 110 Stat. 1214; and in light of the following precedents: Denton v. Hernandez. 504 U.S. 25
119921: Neitzkev. Williams. 490 U.S. 319, 324-25 (1989); Haines v. Kerner. 404 U.S. 519 (1972);
Nasim v. Warden. Md. House of Corr.. 64 F.3d 951 (4th Cir. 1995) (en banc); Todd v. Baskerville.
712 F.2d 70 (4th Cir. 1983).
This court is required to liberally construe pro se pleadings, which are held to a less
stringent standard than those drafted by attorneys. Erickson v. Pardus. 551 U.S. 89, 94 (2007);
King v. Rubenstein. 825 F.3d 206, 214 (4th Cir. 2016). Nonetheless, the requirement of liberal
construction does not mean that the court can ignore a clear failure in the pleading to allege facts
which set forth a claim cognizable in a federal district court. See Weller v. Dep’t of Soc. Servs.,

l

The Rules Governing Section 2254 are applicable to habeas actions brought under § 2241.
See Rule 1(b).
Page 2 of 5

0:20-cv-00963-MGL

Date Filed 03/25/20

Entry Number 5

Page 3 of 5

901 F.2d 387 (4th Cir. 1990); see also Ashcroft v. Iqbal, 556 U.S. 662, 684 (2009) (outlining
pleading requirements under Rule 8 of the Federal Rules of Civil Procedure for “all civil actions”).
B.

Analysis

A petitioner cannot challenge his federal conviction and sentence through § 2241 unless he
can show under the “savings clause” of § 2255(e) that a § 2255 motion is “inadequate or ineffective .
to test the legality of his detention.” See 28 U.S.C. § 2255(e); see also Rice v. Rivera. 617 F.3d
802, 807 (4th Cir. 2010) (providing that if a federal prisoner brings a § 2241 petition that does not
fall within the scope of the savings clause, the district court must dismiss the unauthorized habeas
petition for lack of jurisdiction). The United States Court of Appeals for the Fourth Circuit has
held that a petitioner must establish the following criteria to demonstrate that a § 2255 motion is
inadequate or ineffective to test the legality of a prisoner’s conviction:
(1) at the time of conviction, settled law of this circuit or the Supreme Court
established the legality of the conviction; (2) subsequent to the prisoner’s direct
appeal and first § 2255 motion, the substantive law changed such that the conduct
of which the prisoner was convicted is deemed not to be criminal; and (3) the
prisoner cannot satisfy the gatekeeping provisions of § 2255 because the new rule
is not one of constitutional law.
United States v. Wheeler. 886 F.3d 415, 427 (4th Cir. 2018) (quoting In re Jones. 226 F.3d 328,
333-34 (2000)).
Here, Petitioner is unable to meet the savings clause because he fails to allege facts that
would plausibly show that Rehaif is a substantive change in the law that renders Petitioner’s
conduct unlawful. Petitioner argues that he did not know he was barred from owning a firearm,
(Pet., ECF No. 1-1 at 14, ECF No. 1-3 at 3), but Rehaif requires only that the Government prove
that a person charged under 18 U.S.C. § 924(a)(2) & (g) knew he was a felon.2 See Rehaif. 139

2 Petitioner indicates that he stipulated to his status as a felon at trial. (Pet., ECF No. 1-1
at 11.)
Page 3 of 5

0:20-cv-00963-MGL

Date Filed 03/25/20

Entry Number 5

Page 4 of 5

S. Ct. at 2198 (2019) (differentiating between Rehaif s defense—that the Government had to prove
the defendant’s intent to as to each element of the crime, and a “mistake of law” defense—that the
defendant was unaware of a statute proscribing his conduct). Petitioner provides no indication
here that he did not know he was a felon, or that he sought to argue such at trial. Accordingly,
Rehaif is not a change in the law that would allow him to meet the savings clause of § 2255.
Therefore, this case should be dismissed because this court lacks jurisdiction over the Petition.
See Wheeler. 886 F.3d at 426 (holding that the failure to meet the requirements of the savings
clause is a jurisdictional defect that may not be waived).
III.

Conclusion
Accordingly, the court recommends that the Petition in the above-captioned case be

dismissed without prejudice and without requiring the respondent to file a return.

March 25, 2020
Columbia, South Carolina

Paige J. GoSsett
UNITED STATES MAGISTRATE JUDGE

The parties ’ attention is directed to the important notice on the next page.

Page 4 of 5

0:20-cv-00963-MGL

Date Filed 02/17/21

/

Ask.

i

Entry Number 27

Page lot 4

x(

1

^SOUTftS*

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF SOUTH CAROLINA
ROCK HILL DIVISION
JAMES M. LLOYD III, 96603-071,
Petitioner,

§
§
§

vs.

§ CIVIL ACTION NO. 0:20-963-MGL-PJG

J. HUTCHINSON, Warden,
Respondent.

§
§
§

ORDER TRANSFERRING THIS CASE TO
THE EASTERN DISTRICT OF NORTH CAROLINA
I.

INTRODUCTION
Petitioner James M. Lloyd III (Lloyd) filed this 28 U.S.C. § 2241 petition against

Respondent J. Hutchinson (the Warden of F.C.I. Edgefield). He is self represented.

II.

FACTUAL AND PROCEDURAL HISTORY
When Lloyd filed his Section 2241 petition, he was incarcerated at F.C.I.-Edgefield,

which is located in Edgefield, South Carolina. As such, F.C.I.-Edgefield, as well as the Warden
of F.C.I. Edgefield, are within this Court’s jurisdiction.
Lloyd, however, has been moved from F.C.I.-Edgefield and is now at R.R.M. Raleigh,
which is located in Butner, North Carolina. See https://www.bop.gov/inmateloc/ (last visited
February 17, 2021). R.R;M. Raleigh and its warden are within the jurisdiction of the United

0:20-cv-00963-MGL

Date Filed 02/17/21

Entry Number 27

Page 2 of 4

States District Court for the Eastern District of North Carolina (the E.D.N.C.). See 28 U.S. Code
§ H3(a).

III.

DISCUSSION AND ANALYSIS
“The federal habeas statute straightforwardly provides . . . the proper respondent to a

habeas petition is ‘the person who has custody over [the petitioner].”’ Rumsfeld v. Padilla, 542
U.S. 426, 434 (2004) (quoting 28 U.S.C. § 2242). “The writ, or order to show cause shall be
directed to the person having custody of the person detained.” 28 U.S.C. § 2243.
“The consistent use of the definite article in reference to the custodian indicates . . . there
is generally only one proper respondent to a given prisoner’s habeas petition. This custodian,
moreover, is ‘the person’ with the ability to produce the prisoner’s body before the habeas
court.” Rumsfeld, 542 U.S. at 434-35 (quoting § 2242).
Ascertaining the proper respondent is critical because “[t]he writ of habeas corpus does
not act upon the prisoner who seeks relief, but upon the person who holds him in what is alleged
to be unlawful custody.” Braden v. 30th Judicial Circuit Court of Ky., 410 U.S. 484, 494-95
(1973). “The whole force of the writ is spent upon the respondent.” Id. at 495 (citation omitted)
(internal quotation marks omitted).
“District courts are limited to granting habeas relief ‘within their respective
jurisdictions.’” Rumsfeld, 542 U.S. at 442 (quoting 28 U.S.C. § 2241(a)). The Supreme Court has
“interpreted this language to require ‘nothing more than that the court issuing the writ have
jurisdiction over the custodian.’” Id. (quoting Braden, 410 U.S. at 495). “[T]he custodian’s
absence from the territorial jurisdiction of the district court is fatal to habeas jurisdiction.” Id. at
445.

2

0:20-cv-00963-MGL

Date Filed 02/17/21

Entry Number 27

Page 3 of 4

From this law and these facts, we know the following: the Court has jurisdiction over
Lloyd’s Section 2241 habeas petition only if it has jurisdiction over his current custodian. But, it
does not.
Lloyd’s current custodian is the warden of R.R.M. Raleigh. S/he is located, not within
this Court’s jurisdiction, but instead within that of the E.D.N.C..

Accordingly, Lloyd’s

custodian’s absence from the territorial jurisdiction of this Court is fatal to its jurisdiction to
consider the merits of his petition.
Besides, even if somehow this Court were to assess the petition and then grant the relief
Lloyd seeks, the Warden of F.C.I. Edgefield lacks the ability to fulfill an order by this Court
granting the petition. This is so because Lloyd is no longer in the Warden of F.C.I. Edgefield’s
custody. That is why Lloyd’s Section 2241 petition must be transferred: so it can be presented to
R.R.M. Raleigh’s warden, Lloyd’s immediate custodian, who is within the jurisdiction of the
E.D.N.C..
The Court notes, if it were to consider the merits of Lloyd’s petition, it would likely
dismiss it.

IV.

CONCLUSION
Consequently, it is the judgment of the Court this case is TRANSFERRED to the

E.D.N.C. for further proceedings, and any pending motions are DEEMED AS MOOT.
To the extent Lloyd requests a certificate of appealability from this Court, that certificate
is DENIED.

3

0:20-cv-00963-MGL

Date Filed 02/17/21

Entry Number 27

Page 4 of 4

IT IS SO ORDERED.
Signed this 17th day of February, 2020, in Columbia, South Carolina.
/s/ Mary Geiger Lewis
MARY GEIGER LEWIS
UNITED STATES DISTRICT JUDGE

NOTICE OF RIGHT TO APPEAL
The parties are hereby notified of the right to appeal this Order within sixty days from the
date hereof, pursuant to Rules 3 and 4 of the Federal Rules of Appellate Procedure.

4

Additional material
from this filing is
available in the
Clerk's Office.

a

